                  u.s. DEPARTMENT OF COMMERCE                       t:~~~
                               Office of Inspector General          \~)
                                                                      ~d





                                  BUREAU OF THE CENSUS

                                 Re-enumeration at Three
                          Local Census Offices in Florida:
                  Hialeah,Broward South, and Homestead

                  Final Audit Report No. ESD-13215-O-0001/September 2000




                                                PUBLIC
                                                RELEASE



                   Office of Audits, Economics and Statistics Audits Division

1'':­
~j;:"    ,.
;-.1­
  ,h,         1
 ~.;:! 1;'" :
,{;~:.'a. :
  iI1l~~      .
.              "........                        ......._..





    ..
                                                                                      t:{(~       UNITED STATES DEPARTMEIMTOF COMMEAc&
                                                                                                 The Inspector Genet..
               /                                                                  .   \lfJ)
                                                                                         d
                                                                                                 Washflgton. D.C. 20230

    .{                                                                                              SEP 2 9 :£;~


                                           MEMORANDUM FOR:.             Dr. KennethPrewitt
                                                                        Director,Bureauof the Census


                                          FROM:
                                            t

                                          SUBJECT:                      JohnnieE.
                                                                               Frazi~
                                                                                  abtee L:X:;-	 ~- j----i--
                                                                        Re-enumerati~n                                         .
                                                                        Census Offices in Florida: Hialeah. Broward
                                                                        South. and Homestead
                                                                        Final Audit Report No. ESD-132l5-O-0001

                                          As a follow-upto a Seriesof briefingswithsenior CensusBureau officials,includingWilliam
                                          Barron.Deputy Director;John Thompson,AssociateDirector for DecennialCensus; PrestonJ.
                                          Waite,AssistantDirector for DecennialCensus;MarvinRaines, AssociateDirector,Field
                                         Division;and James Holmes,AtlantaRegionalDirector;attached is our final reporton our audit
                                         of enumerationactivities at three localCensusofficesin Florida - Hialeah,Broward South, and
                                         Homestead. Our inquiry waspromptedby an anonymouscomplaintthat was forwardedto our
                                         office on.May 30, 2000, by Congressw°!»aDCarrieMeek. Although the complaintallegedly
         ('.                    J	
                                         came ftom employeesof the Homesteadoffice,we expandedthe scope of our auditto include
                                         both the Hialeahoffice and the BrowardSouthoffice,that is, all three sites where HiaIeah­
                                         trained enumeratorshad worked.

                                         Duringour review.of the proceduresusedat the Homesteadoffice, we found that the Hialeab­
                                         trained enumeratorswere not makingtherequirednumber of visits and telephonecalls before
                                         contactinga neighbor for infonnation.At the BrowardSouth office,we found that the bw:eau's
                                         own qualitycontrol procedureshad detectedseriouser.rorsand .irregularitieson questionnaires
                                         that had.been completed by Hialeah-trainedenumerators. In Hialeah,we were unableto review
                                         any of the 63,000questionnairescompletedat that officebecause the officehad alreadysent
                                         th~ to the bureau's data capturecenterin Phoenix,Arizona. InStead,we reviewedHialeah's
                                         quality controldocuments,after whichweconcludedthat controlsdesignedto detect data
                                         falsificationhad not been properlyimplemented.

                           i.
                                         As we began reporting our findingsto Censusofficials,these officialsinitiated a series of actions
                           ~	            aimed at ensuring the integrityof the dataat thesethree offices. Specifically,(1) at Homestead,
                                         all questionnairescompletedby Hialeahenmneratorswere set aside and thoroughlyreviewedto .
                                         ensure the quality of data collected;approxiniately1,400questionnaireswere re-enumerated;
                                     .   (2) at Broward South, all 3.200 questionnaires completed by Hialeah enumerators were re-
                                         enumerated; and (3) at Hialeah, approximately 63,000 questionnaires, the entire non-response
                                         follow-up workload, were re-enumerated.

         (.
"---'-m




                ..,""
            t
 .          \     .	
                               u. S. Department of Commerce. -:f                      Final Audit Report ESD-13215-O-0001
                               Ofjiaof Inspector General                                                   September-1OOO

                               Becausewe concur with the responsiveactionstakenby the CensusBureau, we are issuingthis
                               report in final. We appreciatethe.cooperationand courtesiesextendedto us during our review by
                               CensusBureau staff at headquartersand at the regionaland localoffices.


                                                                   INTRODUCflON


                               The.Bureauof the Census is in'theprocesspf countingeveryperson in the United States. Census­
                              questionnaireswere deliveredto mosthouses,aparbnents,and mobilehomes by either the U.S.
                              Postal Serviceor Census enumerators. Occupants.wererequestedto complete the questionnaire
                              for their householdsand mail themback to the CensusBureau. If the bureau did not receivea
                              completedquestionnairefor a housingunit,anon-response follow-upenumeratorwas supposed
                              to go to the address and interviewa memberof the housiIigunit. IIowever, if the unit is not
                              occupied,the respondentrefuses to cooperate,or aftersix atteiDptsthe respondentcannotbe
                              contacted,the.enumeratorcan completethe questionnaireby interviewinga knowledgeable
                              respondent,or "proxy."

                              To ensurethat enumeratorsare followingproperenumerationproceduresand are not going to a
                             proxy too early, the bureauhas establishedqualityassuranceprocedures. First, enumerators  .



      \.
                             meet daily with their supervisoror crew leaderto turn in completedquestionnaires. Crew leaders
                             reviewquestionnairesand use a checklistto ensUrethat each questionnaireis completeand
                             accw.:ate.The crew leadermust alsoreviewthe recordof contact to ensure that enumerators
                             made therequired six attempts to contacta memberof the household(three personalvisits and
                             three telephonecalls) before goingto a proxy. Oncecertified and accepted by the crew leader,
                             the questionnairesare turned in to the localCensusoffice,where they are subjectto a reinterview
                             process. The primary purpose of reinterviewis to detect falsifieddata. Reinterviewstaff:on a
                             samplebasis, cOntacthouseholdsto verifytheoriginaldata collectedby the enumerator. If
                             properlyimplemented,these qualitycontrolsshouldidentify enumeratorsnot followingproper
                             procedures,including enumeratorswho have falsifieddata or colleCtedproxy infonnation before
                             makingthe required number of visits.


                                                         PURPOSE ANDSCOPE OF AUDIT

                             On May 30, 2000, CongresswomanCarrieMeekfoxwardedto our office an anonymous
                        i
                        'I   complaintthat her office had receivedftom someonewho apparentlyworked in the Homestead,
                             Florida, local Census office. The complaintallegedthat Homesteadenumeratorshad been
                             orderedto falsifyinformation they reportedon Censusquestionnairesand that the office manager
                             of the Hialeahoffice, whose employeeswereassistingthe Homesteadoffice with its non­
                             response follow-upworkload,had encouragedhis managersto do wnmeverwas necessaryto
                             completetheir work quickly, includingfalsifyingdataon questionnaires. Allegedly,the209

     (~"	                                                                 2
    . .       .       ~   .       .
    .._~~"._._..~.
~
                                      .          ...




                  (
          .    (                           u. S. Departmentof Commerce          .7                 Final Audit Report ESD-13215-0-0001
                                           Ofjice of Inspector General                                                  S!l!.tember 2000

                                          Hialeah enumerators who had been reassigned to help at the Homestead office began fiIJing out
                                          the questionnaires with "John Doe" and "Jane Doe" and using abbreviated enumeration
                                          procedures rather than fol1owing the prescn"bedenumeration procedures for non-response folIow­
                                          up.                       .


                                           Thepwpose of our audit was to determinewhetherenumeratorstrafuedor supervisedby Hialeah
                                          managersfollowedCensusproceduresandwhetherquality controlprocedureswere in place at
                                          any office that emp19yedHiale3h-trainedworkers. Other matters,raisedin the complaint
                                          receivedfromCongresswomanMeekwerereferredto the OIG's O(ficeof Investigations. To
                                          conductour review,we examined(1) non-responsefollow-upprocedures,(2) questionnaires
                                          completedby Hialeah enumerators,and (3) qualitycontrol documentationover completed
                                          questionnaires. We interviewedheadquartersofficialsin Suitland,Maryland;regional personnel
                                          in Atlanta,'Georgia;and field staff at six officesin SouthFlorida - BrowardSouth, Homestead,
                                          Hialeah,MiamiEast, Miami South,and MiamiDade NE.

                                          We conductedour fieldworkin June tbrQughAugust2000 at the six South Florida officesand at
                                          CensusBureauheadquartersin Suitland. Wereviewedthe adequacyof internal controlsover
                                          questionnairescompletedby enumeratorsand found that Hialeahcrewleadersdid not properly
              ./                          reviewquestionnairesand that the reinterviewoperationat Hiaieahhad not been properly
              {
              ".
                                          implemented. We discuss these internalcontrolweaknesseson pages 6 and 7 of the report. We
                                                                                     did not use data in computer-generatedreports.

                                                                                     Finally, during our fieldwork, as we reported our
                                                                                     findfugs to Census officials, these officials initiated

                                             ~~                    ~\                a series of actions aimed at ensuring.the integrity of
                                                                                     the data collected at Homestead, Broward South,



                                                                                \
                                                                                     and Hialeah. While we concurred with the intent of


                                                               ':
                                                                                     the actions taken, we have not verified the results.
                                                                                     This audit was conducted in accordance with
                                                                                     generally accept~ government auditing standards




                              ~
                                                                   ~     ./"~
                                                                                     and performed under the authority of the Inspector
                                                                                     General Act of 1978, as amerided, and Department
                                                                                     Order 10-13, dated,May 22, 1980, as amended.




              (.                                                                       3

    --_n_h.._..


"




            ('­
           J
      . ~.                u. S. Department of Commerce. ..7                                   Final Audit Report ESD-13215-()"()001
        \
                          Office of Inspector General              .
                                                                                                                    September 2000.

                                                          FINDINGS AND RECOMMENDATIONS

                         I.       Homestead: Proper. Procedures Were
                                  !'lot FoUowedby Hialeah-Trained EnumeratorS

                         On May 30, 2900, CongresswomanCame Meek forwardedto the Inspector Generalan anonymous
                         complaintconcerningpotentialproblemsat the Homesteadoffice. The complaint containedspecific
                        .detailsand suggesteda major breakdownin the proceduresand controlsessential to the integrity.Of
                         the decennialcensus. The audit teamsent to the Homesteadofficedetermined that enumeration
                        practicesusedby Hialeah-trainedenumeratorsworJdngat the Homesteadoffice did not conformto
                        the policies and proceduresdesignedby the CensusBureau to ensure the ql1alityof non-response
                        follow-updata. The auditorsconfirmedthat enumeratorstransfCrredfromHialeah to assist
                        Homesteadwere taking shortcutswith some-;,200questionnairesthat they had been assi~ed. They
                        apparently'werenot making the requirednumberof visits and telephonecalls before contactinga
                        neighborfor the infoIDlation.Data collectedfrom a neighbor(a proxy) can be less reliablebecause
                        it often provides less detaileddemographicdataabout the membersof a housing unit.

                        A reviewof questionnairesco~pleted by Hialeahenumeratorsdisclosedthat while populationand
         /'
                        housingunit data were usually captured,if the neighbordid not know the names of the residents,the
         ~
         ~              enumeratorswere simply enteringsuchDamesas John, Jane, Girl, and Boy Doe, alongwith
                        approximateages and birth dates.1 Accordingto the bureau's guide1ines~if the neighbordoes not
                        knowthe name or age of the respondent,thosespaCesshouldbeleft blank.

                       Duringour audit, we contactedthe Hialeahofficemanagerconcerningthe questionableprocedures
                       used by his enumerators,that is, the extensiveuse of "Doe" in conjunctionwith the large numberof
                       questionnairescompletedby proxy. The Hialeahmanagerexplained,thatdue to the high refusal rate
                       in his area, abbreviatedenumerationprocedureswere implementedat Hialeah and that "Doe"was
                       simplyintendedto be used as a placeholder.Accordingto the manager,Hiale3hhas a large Cuban
                       population,the enumerationwas takingplaceduring the height of the Elian Gonzalez situation,2and
                       many of the householdswere not very cooperative.

                       He'indicatedthat, althoughhe wantedto havean accuratepopulation count, he was also concerned
                       about the safety of the enumerators. Thus, startingin the secondweek oCnon-responsefollow-upin

                  .'
                   .            IFor example, a respondent's age would be listed as 30 with a birth date of January I, 1970.

                                 2A major news story for the Miami area involved Elian Gonzalez's relatives, who had been faking care of
                       the six ycar~ld boy since November 25, 1999, when the boat canying Elim Gonzalez's mother and other Cubans
                       capsized, killing her and 10 otheIs. Friends and relatives opposed the return ofElian Gonzalez to Cuba. Then, on
                       April 22. 2000, federal agents took. the boy from the home orhis Miami relatives. This action occuned six days
                       1Jeforethe start of the Census Bureau's non-response follow-up operation.

        (                                                                         4
              , _...




.(	                       u. S. Department of Commerce.                          Final Audit ReporlESD-13215-0-0001
                          Office of Inspector General                                                 September 2000

                         neighborhoodswhere the refusalrate washjgh,the Hialeahmanagersaid thathe sent out groups of
                         enumerators(a procedurecalled "blitz"enumeration)to completequestionnairesby'at least finding
                         out "unit status" and "populationCOWlts" for eachassignedcase..Collectingjust unit statusand  .


                         populationcount informationfor a questionnaireis referredto as Irfinalattempt"procedures,
                         whereby a proxy is contactedbecausethe enumeratorhas been unableto reach the hoU$cllold.When
                         askedwhy he had gone to final attemptso early,the Hialeahmanager said that he believedthat he
                         wasjust takingcare of a difficultsituationanddid not realizethat he waSusing final attempt'
                         procedures.

                        After reviewingHomesteadquestionnaireScompletedby Hialeahenumerators,we concludedthat
                        once the enumeratorswere transferredto Homestead,they continuedusing these same finalattempt
                        procedures. Accordingto Censusguidelines,questionnairescontainingjust unit status and
                        populationcount data are not supposedto be acceptedby the local ~ensus office until a crew
                        leader's district is 95 percentcomplete. Thus. going to final attemptbefore the 95-percentthreshold
                        had been reachedmay have adverselyimpactedthe quality and accuracyof the data collectedby
                        these enumerators.

                       In addition to contactingthe Hialeahoffice manager,we also discussedour concernswith the area
                       manager,who is responsiblefor monitoringseverallocal Census offices. Based on these
 ,l	                   conv~ons,       it is unclearwhetherthe Hialeahmanagerclearly communicatedto regional
                       managementthat he was using abbreviatedprocedures. The Hialeahmanager contendsthat he
                       informedthe area managerthat his officewas blitzingneighborhoodswhere the refusal rate was
                       high. However, accordingto the'areamanger,she did not recall that the Hialeahoffice was having
                       problems collectingdata due to the ElianGonzalezsituation,did not remember whetherthe Hialeah
                       manager had even infonned her that his officewasblitzing neighborhoods,and was certainthat the
                       managerhad not communicatedthathe was usingabbreviatedproceduresto collectdata.
                       Recommendation

                       We recommended that the bureau ensure that its own quality standards were adhered tc>when the
                       dat;awas collected. SpecificaIly. we reCommended that (1) questionnaires with data collected using
                       inappropriate procedures be re-enumerated and (2) for the remaining questionnaires, a sample of
                       questionnaires for each Hialeah enumerator transferred to Homestead be selected for reinterview.

                       Actions Taken by the Census Bureau
         ..

                       The Census Bureau concuned with our recommendations.The Homestead office re-enumeratedall
                       (almost 1,400)questionnaireswhere inappropriateprocedureshad been used and then selecteda
                       sample of questionnairesfor each enumeratorto put throughthe reinterviewprocessto check for
                       data falsification. We concurredwith the actionstaken by the CensusBureau, but have not verified
                       the Tesu1ts.

 {­
 '-c.	
                                                                       5
.              -	                                                                                   .....




         I{"


    . \	
        ~.
                            u. S. Department of Commerce .,                              FmaJ Audit Report ESD-13215-O-0001
                            f!Jlice of Inspector General                                                     September 2000

                            II.	         Broward South: Serious Irregularities Identified

                                         iDWork Completed by Hialeah-Trained Crews


                            Qualitycontrolprocedureswerenot properlyfollo.wedbyHialeah crew leaderssent to Broward
                           South. Specifically,numerousquestionnairescontainingerrors and irieguIaritieswere submitted
                           to.theBrowarc:tSouth offic~for process~g withouthavingbeen properlyreviewedby Hialeah
                           crew leaders. These errorsand iITeguIaritieswere identifiedduring check-inby.office staff at
                           Broward South. censUs check-inproteduresrequireoffice staff to reviewcertain sectiopsof the ­
                           questionnairefor accuracyand completenessbeforethey are shipped for processingto the
                           bureau's data capture center in Phoenix. TheBrowatd South managerwas concernedaboutdata
                           quality for these questionnairesanddid not ship any of the questionnairesturned in by Hialeah
                           crews. Accordingto the manager,he plannedto have office staff review and manually pull
                           Hialeah-completedquestionnairesfor reinterview. Approximately3,200 questionnaireshad been
                           completed by some 160 Hialeah enumerators. .

                          Duringour review of these questionnaires,we confumedthe problems identifiedby the Broward
                          South office. For example,some questionnaireswere certifiedas completeand accurateby the
                          crew leader before an enumeratorhad evencompletedthe questionnaire. In such cases, data
     ,t.r                 quality has to be questionedwhen the crewleaderis not properlyreviewingthe questionnaires.
                          The Broward South.managerexplainedthatwhen he confrontedHialeahpersonnelaboutpre­

     \,                   ceitifyingquestionnaires.they respondedthat this was the way.theywere told to do it at the

                          Hialeahoffice.


                          We also found one enumeratorwho turnedin nine questionnaires~th no data and recordedthat
                          he had visited each of the nine householdssix times(54 visits) but was unableto get an interview
                          with anybody. On the other end of the spectrum,we found that an enumerafurhad .completed
                          15questionnairesin 3.5 hours, well abovethe bureauaverageof 1.4 questionnairesper hour.
                          Accordingto bureau personnel,the work ftom both of theseenumeratorsappears.irregularand
                          shouldhave been questionedby the crewleader. However,these.questionnaireswere initialed
                          offby the crew leader and submittedto the BrowardSouth office for processing.

                          BufeaUproceduresrequirecreWleadersto use a checklistto review and certify every
                          questionnaire. A crew leadermustnot accepta fonn that is incomplete,illegible,or inaccurate.
                          In addition, crew leadersare instructednot to accepta questionnaireunless they are convinced
                          that every attemptwas made to obtainmissinginformation. However,we concludethat several
                    i
                    'i	   crew leaders.&omHialeahdid not followtheseprocedures.

                          Finally, as in Homestead,our reviewof questionnairesalso disclosed the use of "Doe" as a
                          placeholder for a number of respondents , names (see page     4).




     ",""
    f
    \.,.
                                                                                   6





                           ..   on--'"
                                             ..   H'   .-   n	   .m'--'   ----­

.".'.'~~              n          -.-.




~




           .(                   u. S. Department of Commerce
                                Office of Inspector General
                                                                                           . .~'"                               Final Audit Report ESD-1321S-O-Q00I
                                                                                                                                                      September 2000

                                Recommendations

                                We recommendedthat the bureauensurethat the data colleCtedmeet the appropriatequality
                                standards. Specifically,we recommendedthat (1) questionnaireswi~ data collectedusing
                                inappropriateproceduresbe re-enumeratedand (2) for the remainingquestionnaires,a sampleof
                               .questionnaires,foreach Hialeahenumeratortransferredto BrowardSouth be selected for
                               reinterview.

                               Actions Taken by the Census Bureau

                          ,    The CensusBureau concUITedwith our recommendations.However,due to the seriouserrors
                               and irregularities, all 3,200 questionnaires originally assigned to Hialeah enumerators were re-
                               enumerated. We concurred with the actions t3ken by the Census"Bureau, but did not verify the
                               results.


                               ID.	       Hialeah: Quality Control Was Insufficient

                                          to Ensure a Reliable Enumeration


           ~	                 Afterreviewingthe work completedby the Hialeah-trainedenumeratorsthat were sent to the
                              Homesteadand Broward South offices,we visitedthe Hial~ office to better understandthe
                              proceduresusedby that office. However,we were unableto reviewthe 63,000 questionnaires
                              completedat Hialeah becausethe officehad already~t them to thebureau's data capturecenter
                              in Phoenix. Instead, we reviewedthe office'squality controldocuments.

                              To ensurethat enumeratorsare not falsifyingdata, a reinterviewenumeratorroutinely contacts
                              certainhousingunits to verifythe datacollectedby the originalenumerator. After the
                              reinterviewenumeratorverifiesthe data,the office's quality controlstaffwill either acceptor
                              rejectthe originalinterview and also indicatewhetherrejectedquestionnairesresulted from error
                              or falsification. We examinedseveralreinterviewforms and found that the quality controlstaff
                              did not correctlyfill out theacceptlrejectsectionor the error/falsificationsection.

                              For example,in a house listed as vacantby the original enumerator,the reinterviewenumerator
                               foundthat it was occupied by fourpeopleandthat no one from the CensusBureau, except for the
                              reinterviewenumerator,had contactedthe residence. Giventhe discrepanciesbetween what was
                 ~	           foundby the original enumeratorand the reinterviewenumerator, this fonn shouldhave been
                              marlcedrejected. Next, the reinterviewfonn shouldhave been given to the Assistant Manager
                              for Field Operationsfor follow-upto determinewhetherthe originalenumeratorwas in error,
                              went to the wrong housing unit, or had falsifiedthe data. However,none of this was done, and
                              the originalquestionnaireinexplicablywas acceptedby the reinterviewenumerator.
           /.

           (.­
                                                                                                                7




                                    u-   unU	   --   - - - -   - --_m   --   n--   U -_u            u-   _un-       --   ---   --   --­
     ',                       h




          '.


"




,­
                 ("
          . (.	                     u. S. Department .of Commerce .,
                                    Office of Inspedor General'                  .
                                                                                                                     Final Audit Report ESD-1321S-O-0001
                                                                                                                                          September 2000

                                   Furthennore,when we examinedthereinterviewdocumentationin Hialeah, we noticed that an
                                   enumeratorwho ~ been cited for falsifyingdatain Hialeahwas subsequentlysent to work at
                                   the Broward South office,wherethis enumeratorwas once againcited for falsifying'data. The
                                   Hialeahoffice had never processedthepaperworkto terminatethis employee whenthe
                                   falsificationfirst occurred.                                                                           .




                                   AfterreviewingnumerousreinterviewfoDDS,we concludedthat thereinterview.process a key                        -
                                                                                                             -
                                   qualitycontrQldesigned to detectdatafalsification did not functionas intended at Hialeah. We                            ­
                                   discussedour concerns about thereinterviewoperationwith theHialeahmanager, who explained
                                   that the person in charge of the reinterviewoperationwas not properlymanaging it and had been
                                   replaced. Because the reinterviewoperationwasnot properlyimplemented,we believe'
                                   fiaudulentdata could have been submitted,undetected,by enumerators.and shippedto the data
                                   capturecenter for processing.

                                  For a number of reasons,we wereveryconcernedaboutthe quality,ofdata that had been
                                  collectedby the Hialeahoffice. Startingthe secondweek of non-responsefollow-up,the Hialeah
                                  manageradmits that he instructedenumeratorsto use abbreviated,tojust coHectunit status and
                                  populationcounts for housing units,and to use lane and John Doe as placeholders for unknown
               ['         .       names. Based on our examinationof the qualitycontroldocuments,as well as the office
                                  manager's statements,we determinedthat controlswere insufficientto ensure that widespread
               t,.                falsificationhad not occurred at this office.                                         .



                                  Recommendation

                                  We recommended that the bureau take the necessary actions to ensure that the data conected for
                                  Hialeah~as in compliancewith the Censusstandardsfor quality.	                                                 .



                                  Actions Taken ,by the Census Bureau

                                  After consultingwith the Hialeahmanager,theAtlantaRegional DirectordirectedHialeah to re­
                                  enumerate20 percent of the city of Hialeah,or 160assignmentareas,3and then samplethe
                                  remaining642 assignmentareas in the city fordata ciuality..We wereconcerned about this
                                  approachbecause we were not convincedthat theproblemswere limitedto the city of Hialeah.
                                  Headquarters,in.turn, respondedto ourconcernand agreedto go outside the city if the data
                                  within the city wammted such action.
                          ~

                                  However,we detennined that the Hialeahstaff did not properly followthe special procedures for
                                  samplingthe 642 assignmentareaS. Hialeahstaffwere supposedto match tl,teoriginal       .
                                  queStionnairedata to a re-enumeratedquestionnaire,therebydeterminingwhether the original


                                        lDere are approximately 40 housing units in an assignment area.
          (	          .
                                                                                                         8




                                        d   -_u   n-           n__n.   --   n.       _n--   - _n--'---       ___un    --   -­
    ,                    "''''       '       '



"

                     ~

        .­




             /
                                                  u. S. Departmentof Commerce.f
    . \.                                 .
                                                  !lfJiceof InspectorGeneral       . '.
                                                                                                          Final Audit Report ESD-13215-0-0001
                                                                                                                    .          S!1!tember2000

                                                 questionnaireshouldbe acceptedor rejected. We found that office cl~rkswere not properly. .
                                                                             -
                                                 followingthese procedures thatis, questionnairesthat shouldhave been rejected we~ often
                                                 accepted. We brought this to theregionaloffice's attention. At this point, the bureau decided
                                                 not to wait for the results of the matchingoperationand to re-enumerateall 63,000 housingunits
                                                 coveredby"theHialeahoffice.

                                                  We concUITe(fwiththebureau's decisiotUore-enumerateall 63,000 housing units. To ensure
                                                 that the re-enumeraPonfor Hialeahwascompleteand accurate,the bureau took,thefollowing
                                                 steps':developedspecialprocedures,assignedstaff ftom CensusBureau headquartersto oversee
                                                 the re-enumeration,and transferredthenon-responsefollow-upworldoad for Hialeahto three
                                                                                          -
                                                 independentoffices in the Miamiarea MiamiSouth,MiamiDade NE, and Miami East We .
                                                 reviewedthe special re-enumerationproceduresand visitedeach of the three offices conducting
                                                 the ie-enumeration. We believethat these specialprocedures,alongwith the oversightprovided
                                                 by headquarters,shouldhave been adequateto.ensurethat the data collected was completeand
                                                 accurate.


                                                 cc: Robert J. Shapiro, Under Secretary for Economic Affairs

             (




                         ~




             (.                                                                                9




             '-""""'-'           .
